               System Requirements Were Not Adequately
               Managed During the Testing of the Custodial
                         Accounting Project

                                  December 2004

                       Reference Number: 2005-20-019




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                   December 21, 2004



      MEMORANDUM FOR CHIEF INFORMATION OFFICER


      FROM:                         Gordon C. Milbourn III
                                    Assistant Inspector General for Audit
                                    (Small Business and Corporate Programs)

      SUBJECT:                      Final Audit Report - System Requirements Were Not Adequately
                                    Managed During the Testing of the Custodial Accounting Project
                                    (Audit # 200420011)


      This report represents the results of our review of the Custodial Accounting Project’s
      System Acceptance Testing. The overall objective of this review was to determine the
      status of the Internal Revenue Service’s (IRS) and the contractors’1 readiness to deliver
      the Custodial Accounting Project (CAP) Release 1.0.
      In summary, the IRS is currently modernizing its computer systems, business
      processes, and practices. This effort is known as Business Systems Modernization
      (BSM). One of the BSM projects is the CAP, which will help to modernize the IRS
      financial systems and improve processes. The CAP is designed to help correct
      longstanding weaknesses in the IRS financial management systems, which accounted
      for over $2 trillion in tax collections (about 95 percent of Federal Government receipts)
      and $300 billion in tax refunds in Fiscal Year 2003.
      Release 1.0 was planned to deliver the CAP’s primary functions and establish the CAP
      to operate on the modernized infrastructure.2 The IRS and the CAP contractor have
      completed all major test activities for Release 1.0. However, Release 1.0 was not



      1
        Northrop Grumman is under contract to develop and deliver the CAP Release 1.0. The Computer Sciences
      Corporation (known as the PRIME contractor) is responsible for testing to ensure the CAP integrates with other
      modernization projects.
      2
        Infrastructure refers to the hardware, software, and security systems that the various modernized computer systems
      will use to communicate and share information.
                                                          2

deployed as originally planned but was, instead, incorporated into Release 1.1 and
deployed in late summer 2004.
The BSM Office (BSMO), the CAP contractor, and the eventual user of the system have
been working together to deploy the CAP. Throughout our audit, the CAP team was
making progress toward this goal. We determined significant test phases were
completed, corrective actions were taken to complete testing of deferred3 system
integration test (SIT)4 test procedures, testing practices were followed, and data
anomalies5 were tracked and prioritized.
Despite progress toward a long-awaited goal, the IRS and the CAP contractor did not
adequately manage system requirements during the Release 1.0 System Acceptability
Test (SAT).6 As a result, the CAP Release 1.0 may not function as intended. The IRS
and the CAP contractor did not track Release 1.0 system requirements during the SAT,
testing practices did not allow the testers to determine whether system requirements
were successfully tested during the SAT, the IRS approved changes to the baseline
system requirements without always knowing which system requirements were affected,
and the IRS accepted the Release 1.0 SAT without knowing or reviewing how many
requirements were successfully verified during testing. As a result, critical system
requirements were not tested, additions to the baseline system requirements were not
tested, and discrepancies in the Release 1.0 test results may have affected Release 1.1
testing.
We also determined the main system performance requirement would not be tested
prior to deployment. In addition, CAP improvement recommendations developed by the
IRS’ internal reviews have not been fully implemented.7
To ensure an accurate requirements baseline is developed and maintained for future
releases, we recommended the Chief Information Officer (CIO) determine the system
requirements that have been successfully deployed with the current CAP release and
identify all open requirements. For future CAP releases, the CIO should implement
appropriate requirements management practices to adequately define, track, and report
on system requirements. To ensure the deployed CAP will function as intended, we
recommended the CIO test the main system performance requirement as soon as
possible. To improve testing, data quality, and engineering aspects of the CAP, we
recommended the CIO ensure the approved internal review recommendations are
implemented as soon as possible.



3
  Deferrals are approved requests for verification of a requirement or set of requirements to be moved to another
phase of testing.
4
  SIT ensures system components are properly integrated.
5
  Data anomalies are any identified exceptions found while moving data from an old system to a new system.
6
  SAT is the process of testing a system or program to ensure it meets the original objectives outlined by the user in
the requirements analysis document.
7
  The BSMO formed three separate groups called “Tiger Teams” to conduct studies on the testing, data quality, and
engineering aspects of the CAP.
                                            3

Management’s Response: The CIO agreed with our recommendations and has
completed corrective actions on three of the four recommendations. The CIO indicated
the IRS has significantly modified its approach to requirements management for CAP
Releases 1.1 and 1.2.
More specifically, the CIO stated the IRS continues to use and strengthen the
requirements management practices as outlined in the Enterprise Life Cycle. Also, the
IRS has changed the Requirements Traceability Verification Matrix to improve the
tracking of test scripts to requirements and has increased the participation of the Chief
Financial Officer, Business Systems Development, and Business Systems
Modernization organizations and the CAP Architecture Review Board in discussing
change requests as well as how change requests are implemented. Finally, IRS
executives conduct weekly meetings with the contractor to review and reach agreement
on what change requests will be implemented and which reports will be incorporated or
produced in each release. Management’s complete response to the draft report is
included in Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.
            System Requirements Were Not Adequately Managed During the Testing
                            of the Custodial Accounting Project




                                                  Table of Contents


Background ............................................................................................... Page 1
The Custodial Accounting Project Team Is Making Progress
Toward Deployment .................................................................................. Page 4
System Requirements Were Not Adequately Managed During
Testing ...................................................................................................... Page 5
         Recommendation 1: .......................................................................Page 11
         Recommendation 2: .......................................................................Page 12

The Main System Performance Requirement Will Not Be Tested
Prior to Deployment................................................................................... Page 12
         Recommendation 3: .......................................................................Page 13

Recommendations for Improvement Have Not Been
Implemented ............................................................................................. Page 13
         Recommendation 4: .......................................................................Page 15

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 16
Appendix II – Major Contributors to This Report ....................................... Page 18
Appendix III – Report Distribution List ....................................................... Page 19
Appendix IV – Subreleases for the Custodial Accounting Project
Release 1 .................................................................................................. Page 20
Appendix V – Enterprise Life Cycle Overview ........................................... Page 21
Appendix VI – Custodial Accounting Project System Requirements
Changes.................................................................................................... Page 25
Appendix VII – Management’s Response to the Draft Report. .................. Page 26
       System Requirements Were Not Adequately Managed During the Testing
                       of the Custodial Accounting Project

                               The Internal Revenue Service (IRS) is currently
Background
                               modernizing its computer systems, business processes, and
                               practices. This effort is known as Business Systems
                               Modernization (BSM). One of the BSM projects is the
                               Custodial Accounting Project (CAP), which will help to
                               modernize the IRS financial systems and improve business
                               processes.
                               The CAP is designed to help correct longstanding
                               weaknesses in the IRS financial management systems,
                               which accounted for approximately $2 trillion in tax
                               collections (about 95 percent of Federal Government
                               receipts) and $300 billion in tax refunds in Fiscal
                               Year 2003. These weaknesses include:
                               •   Deficiencies in controls to properly manage unpaid
                                   assessments,1 resulting in both taxpayer burden and lost
                                   revenue to the Federal Government.
                               •   Deficiencies in controls over tax refunds, permitting the
                                   disbursement of improper refunds.
                               •   Inadequacies in the financial reporting process that
                                   prevent the IRS from having timely and reliable
                                   information for decision making.
                               Due to these weaknesses, the IRS has to implement
                               compensating processes and expend tremendous resources
                               to prepare its financial statements. Additionally, these
                               weaknesses may adversely affect the decisions made by the
                               IRS and/or the Congress when relying on the information
                               obtained from the IRS custodial reporting systems. Part of
                               the solution for correcting these weaknesses includes
                               developing and implementing the CAP.
                               The CAP will be the primary system for the IRS to store
                               taxpayer data for analysis and financial reporting purposes.
                               Northrop Grumman is the contractor responsible for
                               planning, developing, and deploying the CAP under the
                               leadership and direction of the IRS BSM Office (BSMO).




                               1
                                 An unpaid assessment is a balance due (taxes, penalties, and interest)
                               from a taxpayer.
                                                                                                 Page 1
System Requirements Were Not Adequately Managed During the Testing
                of the Custodial Accounting Project

                        The PRIME contractor2 is responsible for integrating the
                        CAP with other modernization systems.
                        The IRS initiated two systems in 1997 and 1998 that
                        evolved into the CAP. Currently, the CAP will be
                        developed and deployed in three separate phases, known as
                        releases. The three releases for the CAP are as follows.
                        •   Releases 1 and 2 will provide a single, integrated data
                            repository of taxpayer account data, which includes
                            detailed taxpayer account history and unpaid assessment
                            information. Release 1 will consist of data from the
                            Individual Master File (IMF)3 and the Customer
                            Account Data Engine (CADE).4 Release 2 will consist
                            of data from the Business Master File (BMF),5 the
                            CADE, and other sources.6 The IRS and the CAP
                            contractor are currently working on CAP Release 1.
                            The IRS suspended work on CAP Release 2 in
                            December 2003, due to delays and technical issues with
                            Release 1.
                        •   Release 3 will provide a single, integrated data
                            repository of payment and deposit information captured
                            at the point of receipt and establish the Collections
                            Subledger. The IRS and the CAP contractor have not
                            started work on Release 3.
                        The IRS and the CAP contractor initially planned to deploy
                        the CAP Release 1 by May 2002. Since then, the CAP
                        deployment date has been significantly delayed, and
                        Release 1 has been divided into six subreleases. See
                        Appendix IV for further explanation of the subreleases.


                        2
                          To facilitate the success of its modernization efforts, the IRS hired the
                        Computer Sciences Corporation as the PRIME contractor and integrator
                        for the BSM program.
                        3
                          The IMF is the IRS database that maintains transactions or records of
                        individual tax accounts.
                        4
                          The CADE is the foundation for managing taxpayer accounts in the
                        IRS’ modernization plan.
                        5
                          The BMF is the IRS database that consists of Federal tax-related
                        transactions and accounts for businesses. These include employment
                        taxes, income taxes on businesses, and excise taxes.
                        6
                          Other sources include other IRS databases for taxpayer information
                        such as the Individual Retirement Account File and the Non-Master
                        File.
                                                                                           Page 2
System Requirements Were Not Adequately Managed During the Testing
                of the Custodial Accounting Project

                        Our audit focused on CAP Release 1.0 (primary or “core”
                        system functionality).7 This audit is the third Treasury
                        Inspector General for Tax Administration (TIGTA) review
                        of the CAP. Our first review of the CAP reported that
                        processes to effectively manage the CAP development were
                        improving. However, efforts to design, develop, and deploy
                        CAP Release 1 were significantly behind schedule and over
                        budget.8 Our second review reported the CAP team
                        prepared test plans to help ensure the developed system
                        meets expectations. However, we found the CAP contractor
                        did not accurately report test results and did not always
                        follow established test procedures.9
                        This review was performed at the BSMO facility in
                        New Carrollton, Maryland, and the CAP contractor offices
                        in Merrifield, Virginia, during the period February through
                        September 2004. The audit was conducted in accordance
                        with Government Auditing Standards. Detailed information
                        on our audit objective, scope, and methodology is presented
                        in Appendix I. Major contributors to the report are listed in
                        Appendix II.
                        This audit was conducted while changes were being made at
                        both the BSM program level and the CAP project level. We
                        provided significant issues and recommendations to the
                        BSMO by April 2004 and completed the majority of our
                        fieldwork in July 2004. We provided further information
                        and assistance to the BSMO during August 2004. Any
                        project changes that have occurred since we concluded our
                        analyses are not reflected in this report. As a result, this
                        report may not reflect the most current status.




                        7
                          The IRS and the CAP contractor refer to the primary system
                        functionality as the “core” functions of the system.
                        8
                          Processes to Effectively Manage the Development of the Custodial
                        Accounting Project Are Improving (Reference Number 2002-20-121,
                        dated June 2002).
                        9
                          The Custodial Accounting Project Team Is Making Progress;
                        However, Further Actions Should Be Taken to Increase the Likelihood
                        of a Successful Implementation (Reference Number 2004-20-061, dated
                        March 2004).
                                                                                    Page 3
        System Requirements Were Not Adequately Managed During the Testing
                        of the Custodial Accounting Project

                                The BSMO, the CAP contractor, and the eventual user of
The Custodial Accounting
                                the system have been working together to deploy the CAP,
Project Team Is Making
                                and it was, in fact, deployed in late summer 2004.
Progress Toward Deployment
                                Throughout our audit, the CAP team was making progress
                                toward this goal.
                                •    Significant test phases were completed – The System
                                     Acceptability Test (SAT)10 for CAP Releases 1.0 and
                                     1.1, as well as the Release System Integration Test
                                     (RSIT)11 for CAP Release 1.0, were completed.
                                •    Corrective actions were taken to complete testing
                                     of deferred12 system integration test (SIT)13
                                     procedures – In our prior audit,14 we found that certain
                                     SIT procedures were not completed. The CAP
                                     contractor responded it would ensure these procedures
                                     were included as part of the Release 1.0 SAT. We
                                     determined these procedures were scheduled for testing
                                     as part of the Release 1.0 SAT.
                                •    Testing practices were followed – Based on our review
                                     of a judgmental sample of test scripts15 for Release 1.0,
                                     we determined tests were designed to prove the CAP
                                     would function correctly. Also, test scripts that failed
                                     initially were retested until final resolution. While
                                     certain testing practices were followed, overall testing
                                     could be improved (see System Requirements Were
                                     Not Adequately Managed During Testing section in
                                     this report).




                                10
                                   SAT is the process of testing a system or program to ensure it meets
                                the original objectives outlined by the user in the requirements analysis
                                document.
                                11
                                   The RSIT verifies whether the CAP can properly integrate with other
                                designated modernization projects.
                                12
                                   Deferrals are approved requests for verification of a requirement or
                                set of requirements to be moved to another phase of testing.
                                13
                                   SIT ensures system components are properly integrated.
                                14
                                   The Custodial Accounting Project Team Is Making Progress;
                                However, Further Actions Should Be Taken to Increase the Likelihood
                                of a Successful Implementation (Reference Number 2004-20-061, dated
                                March 2004).
                                15
                                   Test scripts are written steps used to verify whether system
                                requirements can function and operate adequately.
                                                                                                  Page 4
        System Requirements Were Not Adequately Managed During the Testing
                        of the Custodial Accounting Project

                                •    Data anomalies16 were tracked and prioritized – The
                                     CAP contractor was able to log, track, and prioritize data
                                     inaccuracies that could cause the CAP to produce
                                     unreliable reports or inaccurate financial statements.
                                Despite progress toward a long-awaited goal, requirements
                                were not adequately managed during testing. In addition,
                                recommendations developed by the IRS’ internal reviews17
                                to improve the CAP have not been fully implemented.
                                According to the Enterprise Life Cycle (ELC),18
System Requirements Were Not
                                requirements management is the process by which
Adequately Managed During
                                requirements of all types are defined, formalized, managed,
Testing
                                controlled, and verified. Effective requirements
                                management is crucial for establishing and maintaining both
                                program and user expectations and for providing a basis for
                                acceptance of a system. To ensure requirements are tracked
                                and maintained, measurements should be gathered to
                                determine the status of requirements. The Software
                                Engineering Institute (SEI)19 recommends measuring the
                                status of each requirement along with the change activities
                                affecting the baseline system requirements.20
                                We determined the IRS and the CAP contractor did not
                                adequately manage system requirements during the
                                Release 1.0 SAT. This occurred because an effective
                                requirements management process was not implemented by
                                the CAP contractor and the IRS did not adequately oversee
                                the CAP contractor’s results. As a result, the CAP
                                Release 1.0 may not function as intended. Specifically, we
                                determined:


                                16
                                   Data anomalies are any identified exceptions found while moving data
                                from an old system to a new system.
                                17
                                   The BSMO formed three separate groups called “Tiger Teams” to
                                conduct studies on the testing, data quality, and engineering aspects of
                                the CAP.
                                18
                                   BSM processes and procedures are documented within the ELC. See
                                Appendix V for an overview of the ELC.
                                19
                                   The SEI is a Federally funded research and development center with
                                the core purpose of helping others measure improvements in their
                                software engineering capabilities.
                                20
                                   The baseline requirements are the set of business features that have
                                been documented and agreed upon by the IRS and the contractor to
                                deliver in the new system.
                                                                                                Page 5
System Requirements Were Not Adequately Managed During the Testing
                of the Custodial Accounting Project

                        •   The IRS and the CAP contractor did not track
                            Release 1.0 system requirements during the SAT.
                        •   During the SAT, testing practices did not allow the
                            testers to determine whether system requirements were
                            successfully tested. As a result, the CAP could not
                            provide and the IRS did not receive reports to review the
                            completion status of system requirements.
                        •   The IRS approved changes to the baseline system
                            requirements without always knowing which system
                            requirements were affected.
                        •   The CAP contractor did not report the final status of the
                            system requirements. Therefore, the IRS accepted the
                            Release 1.0 SAT without knowing or reviewing how
                            many requirements were successfully verified during
                            testing.
                        As a result of these practices, we performed a detailed
                        analysis of the SAT results and determined:
                        •   Critical system requirements were not tested.
                        •   Additions to the baseline system requirements were not
                            tested.
                        •   Discrepancies in Release 1.0 test results may have
                            affected Release 1.1 testing.
                        On April 1, 2004, prior to the completion of the SAT, we
                        communicated our concerns to the BSMO and
                        recommended testers review and verify the CAP system
                        requirements immediately after completion of the remaining
                        test scripts. We stressed the importance of requirements
                        management and recommended the status of all
                        requirements be tracked in an updated Requirements
                        Traceability and Verification Matrix (RTVM) prior to
                        completing the SAT. The CAP contractor responded it was
                        too late in Release 1.0 testing to revise the SAT
                        Release 1.0 test procedures. Therefore, the IRS and the
                        CAP contractor did not take corrective actions to address
                        our recommendations or concerns.




                                                                                 Page 6
System Requirements Were Not Adequately Managed During the Testing
                of the Custodial Accounting Project

                        The IRS and the CAP contractor did not track
                        Release 1.0 system requirements during the SAT
                        The primary goal during the SAT is to ensure system
                        requirements are successfully tested and verified. The
                        RTVM establishes a thread tracing each requirement from
                        the time of identification through changes, testing, and
                        implementation. The CAP contractor prepared an RTVM
                        for CAP Release 1 in March 2003 but did not provide the
                        ability to map a system requirement to its assigned test
                        script(s). Therefore, the IRS could not validate the results to
                        verify if a system requirement was tested. We reported a
                        similar problem in a previous BSM project audit21 and
                        recommended the BSMO perform reviews to ensure
                        documentation is received showing that project system
                        requirements are traced to test procedures.
                        In February 2004, we requested the IRS provide us with the
                        current RTVM documenting the test script in which each
                        system requirement would be tested for Release 1.0.
                        However, this RTVM was not available because the IRS
                        had never requested or required the CAP contractor to
                        develop this type of information. Based on our concerns,
                        the contractor prepared an updated RTVM for our benefit
                        but did not do so until after the SAT was completed.
                        Management Actions: The CAP contractor created an
                        RTVM for CAP Release 1.1 that maps system requirements
                        to associated test scripts. In addition, the IRS stated the
                        CAP team changed the Release 1.1 testing process to allow
                        for clearer requirements validation.
                        During the SAT, testing practices did not allow the
                        testers to determine whether system requirements were
                        successfully tested
                        While executing the test scripts, testers were not analyzing
                        the results to validate or sign off on the system
                        requirements. The CAP contractor stated it was not part of
                        its testing process to verify a system requirement
                        immediately after each script was completed. Instead, the


                        21
                          The Customer Communications Project 2001 Release Was Deployed,
                        But Testing Processes Did Not Ensure All Applications Were Working
                        As Intended (Reference Number 2002-20-056, dated March 2002).
                                                                                   Page 7
System Requirements Were Not Adequately Managed During the Testing
                of the Custodial Accounting Project

                        verification process was performed after all the test scripts
                        were completed. Throughout the SAT, the CAP contractor
                        provided periodic status reports documenting the progress of
                        testing. However, since verification of requirements was
                        not timely performed, the CAP contractor could not provide
                        the status of the system requirements. The IRS did not
                        know how many requirements passed or failed throughout
                        the 9-month testing period.
                        The IRS approved changes to the baseline system
                        requirements without always knowing which system
                        requirements were affected
                        Some of the original system requirements have been
                        modified, added, and/or removed from the CAP baseline
                        system requirements through the use of change requests
                        (CR). We reviewed 63 approved CRs and determined that
                        16 (25 percent) did not adequately identify the affected
                        system requirements to be tested.22 For the remaining
                        47 CRs that did identify affected requirements, we identified
                        11 individual system requirements that were added to the
                        CAP Release 1.0 but were not tested during the SAT. These
                        missing requirements represent new business functionality
                        the IRS and the CAP contractor have agreed to deploy with
                        the CAP but have omitted from their testing processes.
                        The IRS accepted the Release 1.0 SAT without knowing
                        or reviewing how many requirements were successfully
                        verified during testing
                        During the audit, we requested the IRS provide us the status
                        of tested requirements to determine which business
                        functions had been successfully verified. According to IRS
                        officials, they did not have this information and would have
                        to request it from the CAP contractor. In fact, the IRS did
                        not know how many requirements were to be tested during
                        SAT Release 1.0 and, at the end, never knew how many had
                        passed, failed, been waived, or been deferred to other CAP
                        releases. However, the IRS accepted the CAP Release 1.0
                        SAT results without this vital information.

                        22
                          Based on a preliminary version of this report, the IRS stated that all
                        CRs identified requirements in the CRs themselves or in an attachment.
                        The audit team was not provided with any attachments during the audit
                        time frame.
                                                                                         Page 8
System Requirements Were Not Adequately Managed During the Testing
                of the Custodial Accounting Project

                        At our request, the CAP contractor created a mapping of the
                        tested requirements and we performed our own detailed
                        review of the results. We judgmentally selected a sample23
                        of 23 tested requirements for detailed analysis against the
                        test script results. Our analyses showed that 4 (17 percent)
                        of the 23 sampled requirements contained the following
                        inconclusive data:
                        •    Two requirements did not have results and were not
                             tested. We reviewed the SAT Release 1.1 RTVM to
                             determine if those requirements were planned for
                             Release 1.1 testing. The Release 1.1 RTVM incorrectly
                             reported that the two requirements had already been
                             validated or tested in CAP Release 1.0.
                        •    Two other requirements were deferred to CAP
                             Release 1.1. However, the SAT Release 1.1 RTVM
                             listed one requirement as having already been validated
                             in CAP Release 1.0 and did not list the other
                             requirement at all.
                        These four requirements are classified as critical24
                        requirements or “of greatest priority” by the IRS Chief
                        Financial Officer but were not successfully validated during
                        CAP Release 1.0 testing. Based on the results from our
                        initial sample, we reviewed seven25 additional requirements
                        and found four other discrepancies:
                        •    One requirement failed during testing, and the SAT
                             Release 1.1 RTVM stated the requirement had already
                             been tested in CAP Release 1.0.
                        •    Three requirements were deferred to CAP
                             Release 1.1. However, the SAT Release 1.1 RTVM
                             incorrectly reported the requirements as having already
                             been validated in CAP Release 1.0.



                        23
                           See Appendix I for additional information on the first sample
                        selection process.
                        24
                           The IRS and the CAP contractor have classified the system
                        requirements based on their level of criticality to the IRS business units.
                        Critical items are considered greatest priority to the IRS.
                        25
                           See Appendix I for additional information on the second sample
                        selection process.
                                                                                           Page 9
System Requirements Were Not Adequately Managed During the Testing
                of the Custodial Accounting Project

                        Since these system requirements were not successfully
                        tested in the SAT Release 1.0 and not properly tracked for
                        testing in the RTVM for Release 1.1, they may not be tested
                        prior to deployment of the CAP.
                        Management Action: According to the IRS, it conducted a
                        subsequent review of the Release 1.0 test results and the
                        Release 1.1 RTVM and found that 500 (approximately
                        18 percent) out of almost 2,800 rows contained inconsistent
                        results. This is consistent with the results of our sample.
                        We also performed additional reviews to determine the final
                        status of the tested system requirements for the CAP
                        Release 1.0. Based on our analysis, we determined only
                        269 (62 percent) of the 435 tested system requirements were
                        successfully completed and passed. Of the 166 system
                        requirements that did not successfully pass the SAT
                        Release 1.0, 147 (34 percent of the total 435) were either
                        waived26 or deferred. The remaining 19 (4 percent) of the
                        435 system requirements test results were inadequate to
                        support a conclusion. The main purpose for developing the
                        CAP Release 1.0 was to ensure all core system functions
                        were operating adequately.27 Subsequent subreleases were
                        to deliver maintenance upgrades and enhancements to the
                        deployed CAP. However, the test results show not all the
                        core system functions were tested as part of the Release 1.0
                        SAT. Much of this core functionality was deferred to
                        Release 1.1, which was not part of the scope of our review.




                        26
                           Waivers are approved requests for the obligation to verify
                        functionality, such as a requirement or set of requirements, to be deleted.
                        27
                           Core functions are necessary features that the new system must
                        provide for users to operate and perform their job duties.
                                                                                         Page 10
System Requirements Were Not Adequately Managed During the Testing
                of the Custodial Accounting Project

                                Figure 1: SAT Release 1.0 Results (435 Requirements)

                                34% (147
                             requirem ents -
                               w aived or
                                deferred)


                                                                                        62% (269
                                                                                     requirem ents -
                                                                                       tested and
                                                                                        passed)

                                 4% (19
                             requirem ents -
                              unknow n test
                                results)



                        Source: Data obtained from the TIGTA’s analysis of the CAP
                        Release 1.0 SAT results.

                        Of the 166 requirements that did not pass during testing,
                        116 were classified as critical.28 Therefore, the SAT did not
                        verify 116 (27 percent) of 435 of the IRS’ highest priority
                        functions required from the CAP.

                        Recommendations

                        To ensure an accurate requirements baseline is developed
                        and maintained for future releases, the Chief Information
                        Officer (CIO) should:
                        1. Determine the system requirements that have been
                           successfully deployed with the current CAP Release and
                           identify all remaining open requirements so they can be
                           tested in future releases of the CAP.
                        Management’s Response: The CIO stated the corrective
                        action has been completed with a strengthened requirements
                        management process and the contractor’s enhancements to
                        the automated requirements tool, REDCOAT. In addition,
                        the CIO stated the SAT testing process has been altered to



                        28
                          The CAP Release 1.0 will not be able to be deployed into the
                        production environment without CAP Release 1.1, where testing may
                        verify the remaining untested system requirements.
                                                                                     Page 11
        System Requirements Were Not Adequately Managed During the Testing
                        of the Custodial Accounting Project

                                perform requirements validation immediately following the
                                execution of each test script.
                                2. Ensure the IRS and the CAP contractor implement
                                   appropriate requirements management practices, as
                                   required by the ELC, to adequately define, track, and
                                   report on system requirements for testing and delivery of
                                   future CAP releases.
                                Management’s Response: The CIO stated the corrective
                                action has been completed with a strengthened requirements
                                management process to ensure that system requirements are
                                defined, tracked, and reported.

The Main System Performance     Software and hardware testing ensures a system meets
Requirement Will Not Be         functional and performance requirements and can be
Tested Prior to Deployment      effectively used in its intended operational environment.
                                The testing process is a key management control for
                                ensuring IRS executives have valid, credible information
                                upon which to base their decisions for project deployments.
                                The purpose of performance testing is to demonstrate and
                                ensure the system can operate and run at specified levels
                                prior to deployment.
                                The CAP baseline requirements include three performance
                                requirements, consisting of the amount of time it should
                                take to load data weekly into the CAP (the main
                                performance requirement), create reports, and query the
                                system. We determined the main performance requirement
                                was not scheduled for testing29 prior to deployment.30
                                The CAP contractor documented that the main performance
                                requirement could not be tested due to a lack of IRS
                                software in the test environment. In addition, the IRS stated
                                the main performance requirement may have to be revised
                                because the CAP can not currently achieve the 55-hour data
                                load performance level within the testing environment due


                                29
                                   Based on a preliminary version of this report, the IRS responded that
                                Release 1.0 performance testing was extensive. However, the test
                                results that were provided during the audit did not support any testing of
                                the main performance requirement.
                                30
                                   We previously reported (Testing Practices for Business Systems
                                Modernization Projects Need Improvement [Reference
                                Number 2003-20-178, dated September 2003]) that two BSM systems
                                were deployed before performance testing was completed.
                                                                                                 Page 12
        System Requirements Were Not Adequately Managed During the Testing
                        of the Custodial Accounting Project

                                to computer capacity issues. Without testing performance
                                requirements prior to deployment, the IRS will not have
                                objective evidence with which to predict how the CAP will
                                perform in the production environment.

                                Recommendation

                                To ensure the deployed CAP will perform as intended, the
                                CIO should:
                                3. Test the main CAP performance requirement as soon as
                                   possible.
                                Management’s Response: The CIO stated the testing and
                                verification of performance requirements were and continue
                                to be part of planned deployment. The CIO also stated that
                                during the Life Cycle Stage Review for the CAP Release 1.2
                                held November 9, 2004, the contractor used information to
                                show the amount of time to process a peak cycle will be
                                48.9 hours, well within the system requirement of 55 hours.

Recommendations for             In mid-2003, the IRS and the PRIME contractor initiated
Improvement Have Not Been       four studies to help identify the root causes of the problems
Implemented                     hindering the BSM effort and to make recommendations for
                                remedying the problems identified. Key IRS executives and
                                stakeholders reviewed the results of the four studies and
                                created actions to address the study recommendations.
                                These actions collectively became known as the BSM
                                Challenges Plan.
                                One of the actions from the BSM Challenges Plan that
                                extended to the CAP was the need to implement short
                                duration “Tiger Teams.” The Tiger Teams were to establish
                                a forum for escalating issues, facilitate the rapid escalation
                                of issues, and gain commitments from managers to address
                                escalated issues quickly.
                                The BSMO initiated three separate internal reviews, led by
                                Tiger Teams, to conduct studies on the testing, data quality,




                                                                                      Page 13
System Requirements Were Not Adequately Managed During the Testing
                of the Custodial Accounting Project

                        and engineering aspects of the CAP.31 The engineering
                        team was initiated as a result of the BSM Challenges Plan,
                        while the testing and data quality teams were initiated by the
                        IRS and the CAP contractor for process improvements.
                        The Tiger Teams made 24 recommendations for
                        improvement (e.g., establishing Milestone 532 exit criteria
                        and implementing data recovery procedures). However, the
                        BSMO and the CAP contractor had implemented only 2 of
                        the 24 recommendations by the end of our audit work. The
                        BSMO and the CAP contractor plan to implement the
                        remaining 22 recommendations as part of a new contract,
                        which the IRS plans to be a fixed-price contract.33
                        Fixed-price contracts for development work can balance the
                        financial risk between the Federal Government and the CAP
                        contractor. Such a contract could reduce the risk of
                        substantial cost overruns that have occurred in the past.34
                        The CIO has stated the IRS would ensure capped or
                        fixed-price contracts are used for acquisition contracts.
                        The IRS and the CAP contractor began working toward a
                        fixed-price contract in February 2004. As of the end of our
                        audit work, the new contract that will include the
                        implementation of the approved internal review
                        recommendations had not been negotiated. One reason for
                        the delay in completing the fixed-price contract is the CAP
                        contractor’s concern that the IRS continues to change the
                        scope of the project. According to our analysis,
                        35 (56 percent) of the 63 CRs that have occurred throughout




                        31
                           The Tiger Teams were led by the MITRE Corporation, which is a
                        Federally Funded Research and Development Center to assist with the
                        IRS’ systems modernization effort. Officials from Northrop Grumman
                        and various internal IRS organizations also participated in the IRS’
                        internal reviews.
                        32
                           Milestone 5 refers to the activities that need to be completed before
                        the IRS formally accepts a release. See Appendix V for an overview of
                        the ELC.
                        33
                           A firm fixed-price contract is a type of agreement between separate
                        parties to deliver products or services at a set price.
                        34
                           The original estimated cost to complete the first release of the CAP
                        was $47 million. The latest published estimate to complete the CAP is
                        over $98 million.
                                                                                       Page 14
System Requirements Were Not Adequately Managed During the Testing
                of the Custodial Accounting Project

                        the development of the CAP were due to requirement
                        errors.35 See Appendix VI for details of our analysis.
                        Delays in completing a new contract for the CAP will delay
                        implementation of the approved internal review
                        recommendations, and the BSMO could continue to
                        experience problems developing and deploying future CAP
                        releases. Additionally, the IRS will not be able to gain
                        value from the studies and achieve the goals of the BSM
                        Challenges Plan (i.e., rapid escalation and resolution of
                        issues hindering the BSM effort).

                        Recommendation

                        To improve testing, data quality, and engineering aspects of
                        the CAP, the CIO should:
                        4. Ensure approved internal review recommendations are
                           implemented as soon as possible.
                        Management’s Response: The CIO stated all but one of the
                        approved recommendations have been completed or closed.




                        35
                          Requirement errors refer to requirements that were inaccurate, vague,
                        or poorly defined.



                                                                                      Page 15
          System Requirements Were Not Adequately Managed During the Testing
                          of the Custodial Accounting Project

                                                                                                       Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the status of the Internal Revenue Service’s
and the contractors’1 readiness to deliver the Custodial Accounting Project (CAP) Release 1.0.
To achieve our objective, we:
I.       Determined if the System Acceptability Test (SAT)2 results could be relied upon to
         provide assurance that the CAP would function correctly for the end users.
         A. Traced CAP Release 1.0 system requirements to SAT test cases. We captured
            changes to requirements by reviewing the total population of 63 change requests.
         B. Determined the status of waived system integration test (SIT)3 cases.
         C. Determined if the CAP system requirements were tested as planned by selecting and
            reviewing a judgmental sample of 23 CAP Release 1.0 requirements from a
            population of 435 requirements (approximately 5.3 percent of the total population)
            that were scheduled for testing during the Release 1.0 SAT. We used a judgmental
            sample because we did not plan on projecting the results.
         D. Expanded the CAP system requirements testing by selecting and reviewing a second
            judgmental sample of 7 CAP Release 1.0 requirements from a population of
            435 (approximately 1.6 percent of the total population) that were scheduled for
            testing during the Release 1.0 SAT. We used a judgmental sample because we did
            not plan on projecting the results.
         E. Determined the status of Release 1.0 system requirements by reviewing the results of
            the total population of 435 tested system requirements.
II.      Determined if the CAP contractor had adequate procedures to manage data loads.4
         A. Reviewed problems encountered during the data load process.
         B. Documented the cause and effect of the problems identified in Step II.A.
         C. Reviewed the data load process plans.



1
  Northrop Grumman is under contract to develop and deliver the CAP Release 1.0. To facilitate the success of its
modernization efforts, the IRS hired the Computer Sciences Corporation as the PRIME contractor and integrator for
the Business System Modernization program. The PRIME contractor is responsible for testing to ensure the CAP
integrates with other modernization projects.
2
  SAT is the process of testing a system or program to ensure it meets the original objectives outlined by the user in
the requirements analysis document.
3
  The SIT ensures system components are properly integrated.
4
  Data loads are the processes to move taxpayer information from the old system to the new system.
                                                                                                             Page 16
          System Requirements Were Not Adequately Managed During the Testing
                          of the Custodial Accounting Project

III.     Reviewed “Tiger Team” reports5 for the likelihood of a successful CAP deployment.
         A. Reviewed the findings and recommendations included in each report.
         B. Evaluated justification for approving or rejecting the Tiger Team recommendations.
         C. Determined the implementation status of the Tiger Team recommendations.
IV.      Reviewed the Release System Integration Test (RSIT)6 plans and results.
         A. Reviewed the RSIT plan and conducted interviews of the PRIME contractor.
         B. Obtained and reviewed the results of all RSIT cases.




5
  The Business Systems Modernization Office formed three separate groups called Tiger Teams to conduct studies
on the testing, data quality, and engineering aspects of the CAP. Tiger Team reports are results of internal reviews
on engineering, testing, and data quality aspects of the CAP.
6
  The RSIT verifies whether the CAP can properly integrate with other designated modernization projects.




                                                                                                             Page 17
        System Requirements Were Not Adequately Managed During the Testing
                        of the Custodial Accounting Project

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Troy Paterson, Audit Manager
Phung Nguyen, Lead Auditor
James Douglas, Senior Auditor
Wallace Sims, Senior Auditor
Louis Zullo, Senior Auditor




                                                                                         Page 18
       System Requirements Were Not Adequately Managed During the Testing
                       of the Custodial Accounting Project

                                                                            Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Deputy Associate Chief Information Officer, Business Integration OS:CIO:B:BI
Deputy Associate Chief Information Officer, Program Management OS:CIO:B:PM
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:B:SI
Director, Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                  Page 19
          System Requirements Were Not Adequately Managed During the Testing
                          of the Custodial Accounting Project

                                                                                                   Appendix IV


               Subreleases for the Custodial Accounting Project Release 1

Releases 1 and 2 of the Custodial Accounting Project (CAP) will provide for a single, integrated
data repository of taxpayer account data, which includes detailed taxpayer account history and
unpaid assessment1 information. Release 1 will consist of data from the Individual Master File
(IMF)2 and the Customer Account Data Engine (CADE).3 Release 1 has been divided into six
subreleases.
Release 1.0 – This release includes the CAP core functionality and an interface with the
              modernized infrastructure.4 The Internal Revenue Service (IRS) and the CAP
              contractor have completed all major test activities for Release 1.0. However,
              Release 1.0 was not deployed as originally planned but was, instead, incorporated
              into Release 1.1.
Release 1.1 – This release includes additional reporting capabilities, which were not included in
              Release 1.0, and changes to tax laws for 2004. Release 1.1 was deployed in late
              summer 2004.
Release 1.2 – This release will include the CADE/IMF/CAP interface and the midyear 2004 tax
              changes. There will not be a direct interface between the CADE and the CAP in
              this release. Release 1.2 should be completed in November 2004.
Release 1.3 – This release will include audit capabilities and 2005 tax year changes.
Release 1.4 – This release will include the midyear 2005 tax year changes.
Release 1.5 – This release will include the direct interface between the CADE and the CAP, as
              well as an interface with the Payment and Claims Enhancement Reconciliation5
              system and 2006 tax year changes.

1
  An unpaid assessment is a balance due (taxes, penalties, and interest) from a taxpayer.
2
  The IMF is the IRS database that maintains transactions or records of individual tax accounts.
3
  The CADE is the foundation for managing taxpayer accounts in the IRS’ modernization plan.
4
  Infrastructure refers to the hardware, software, and security systems that the various modernized computer systems
will use to communicate and share information.
5
  The Payment and Claims Enhancement Reconciliation is a Department of the Treasury system for disbursement
confirmation data.




                                                                                                           Page 20
          System Requirements Were Not Adequately Managed During the Testing
                          of the Custodial Accounting Project

                                                                                                      Appendix V


                                     Enterprise Life Cycle Overview

The Enterprise Life Cycle (ELC) defines the processes, products, techniques, roles,
responsibilities, policies, procedures, and standards associated with planning, executing, and
managing business change. It includes redesign of business processes; transformation of the
organization; and development, integration, deployment, and maintenance of the related
information technology applications and infrastructure. Its immediate focus is the Internal
Revenue Service (IRS) Business Systems Modernization (BSM) program. Both the IRS and the
PRIME contractor1 must follow the ELC in developing/acquiring business solutions for
modernization projects.
The ELC framework is a flexible and adaptable structure within which one plans, executes, and
integrates business change. The ELC process layer was created principally from the Computer
Sciences Corporation’s Catalyst® methodology.2 It is intended to improve the acquisition, use,
and management of information technology within the IRS; facilitate management of large-scale
business change; and enhance the methods of decision making and information sharing. Other
components and extensions were added as needed to meet the specific needs of the IRS BSM
program.

ELC Processes

A process is an ordered, interdependent set of activities established to accomplish a specific
purpose. Processes help to define what work needs to be performed. The ELC methodology
includes two major groups of processes:
Life-Cycle Processes, which are organized into phases and subphases and address all domains of
   business change.
Management Processes, which are organized into management areas and operate across the
  entire life cycle.




1
  To facilitate success of its modernization efforts, the IRS hired the Computer Sciences Corporation as the PRIME
contractor and integrator for the BSM program and created the Business Systems Modernization Office to guide and
oversee the work of the PRIME contractor.
2
  The IRS has acquired a perpetual license to Catalyst® as part of the PRIME contract, subject to certain restrictions.
The license includes rights to all enhancements made to Catalyst® by the Computer Sciences Corporation during the
contract period.
                                                                                                              Page 21
                  System Requirements Were Not Adequately Managed During the Testing
                                  of the Custodial Accounting Project

                                                       Enterprise Life-Cycle Processes


                                      IRS Governance and Investment Decision Management
    Management




                                               Program Management and Project Management

                                      Architectural Engineering / Development Coordination

                                                       Management Support Processes


                                                                                                    Business Processes




                                                                                                                             Operations & Support
                                                                                                            Applications
                  Vision & Strategy




                                                        Development
                                        Architecture




                                                                                    Deployment
                                                                      Integration
    Life Cycle




                                                                                                                    Data


                                                                                                 Organizational Change


                                                                                                 Technical Infrastructure


                                                                                                 Facilities Infrastructure


Source: ELC Guide, Page 2-16.




Life-Cycle Processes

The life-cycle processes of the ELC are divided into six phases, as described below:
•                Vision and Strategy - This phase establishes the overall direction and priorities for
                 business change for the enterprise. It also identifies and prioritizes the business or system
                 areas for further analysis.
•                Architecture - This phase establishes the concept/vision, requirements, and design for a
                 particular business area or target system. It also defines the releases for the business area
                 or system.


                                                                                                                                                Page 22
        System Requirements Were Not Adequately Managed During the Testing
                        of the Custodial Accounting Project

•      Development - This phase includes the analysis, design, acquisition, modification,
       construction, and testing of the components of a business solution. This phase also
       includes routine planned maintenance of applications.
•      Integration - This phase includes the integration, testing, piloting, and acceptance of a
       release. In this phase, the integration team brings together individual work packages of
       solution components developed or acquired separately during the Development phase.
       Application and technical infrastructure components are tested to determine whether they
       interact properly. If appropriate, the team conducts a pilot to ensure all elements of the
       business solution work together.
•      Deployment - This phase includes preparation of a release for deployment and actual
       deployment of the release to the deployment sites. During this phase, the deployment
       team puts the solution release into operation at target sites.
•      Operations and Support - This phase addresses the ongoing operations and support of
       the system. It begins after the business processes and system(s) have been installed and
       have begun performing business functions. It encompasses all of the operations and
       support processes necessary to deliver the services associated with managing all or part
       of a computing environment.
       The Operations and Support phase includes the scheduled activities, such as planned
       maintenance, systems backup, and production output, as well as the nonscheduled
       activities, such as problem resolution and service request delivery, including emergency
       unplanned maintenance of applications. It also includes the support processes required to
       keep the system up and running at the contractually specified level.

Management Processes

Besides the life-cycle processes, the ELC also addresses the various management areas at the
process level. The management areas include:
•      IRS Governance and Investment Decision Management - This area is responsible for
       managing the overall direction of the IRS, determining where to invest, and managing the
       investments over time.
•      Program Management and Project Management - This area is responsible for
       organizing, planning, directing, and controlling the activities within the program and its
       subordinate projects to achieve the objectives of the program and deliver the expected
       business results.
•      Architectural Engineering/Development Coordination - This area is responsible for
       managing the technical aspects of coordination across projects and disciplines, such as
       managing interfaces, controlling architectural changes, ensuring architectural compliance,
       maintaining standards, and resolving issues.


                                                                                           Page 23
        System Requirements Were Not Adequately Managed During the Testing
                        of the Custodial Accounting Project

•      Management Support Processes - This area includes common management processes,
       such as quality management and configuration management that operate across multiple
       levels of management.

Milestones

The ELC establishes a set of repeatable processes and a system of milestones, checkpoints, and
reviews that reduce the risks of systems development, accelerate the delivery of business
solutions, and ensure alignment with the overall business strategy. The ELC defines a series of
milestones in the life-cycle processes. Milestones provide for “go/no-go” decision points in the
project and are sometimes associated with funding approval to proceed. They occur at natural
breaks in the process where there is new information regarding costs, benefits, and risks and
where executive authority is necessary for next phase expenditures.
There are five milestones during the project life cycle:
•      Milestone 1 - Business Vision and Case for Action. In the activities leading up to
       Milestone 1, executive leadership identifies the direction and priorities for IRS business
       change. These guide which business areas and systems development projects are funded
       for further analysis. The primary decision at Milestone 1 is to select BSM projects based
       on both the enterprise-level Vision and Strategy and the Enterprise Architecture.
•      Milestone 2 - Business Systems Concept and Preliminary Business Case. The
       activities leading up to Milestone 2 establish the project concept, including requirements
       and design elements, as a solution for a specific business area or business system. A
       preliminary business case is also produced. The primary decision at Milestone 2 is to
       approve the solution/system concept and associated plans for a modernization initiative
       and to authorize funding for that solution.
•      Milestone 3 - Business Systems Design and Baseline Business Case. In the activities
       leading up to Milestone 3, the major components of the business solution are analyzed
       and designed. A baseline business case is also produced. The primary decision at
       Milestone 3 is to accept the logical system design and associated plans and to authorize
       funding for development, test, and (if chosen) pilot of that solution.
•      Milestone 4 - Business Systems Development and Enterprise Deployment Decision.
       In the activities leading up to Milestone 4, the business solution is built. The system is
       integrated with other business systems and tested, piloted (usually), and prepared for
       deployment. The primary decision at Milestone 4 is to authorize the release for
       enterprise-wide deployment and commit the necessary resources.
•      Milestone 5 - Business Systems Deployment and Postdeployment Evaluation. In the
       activities leading up to Milestone 5, the business solution is fully deployed, including
       delivery of training on use and maintenance. The primary decision at Milestone 5 is to
       authorize the release of performance-based compensation based on actual, measured
       performance of the business system.
                                                                                           Page 24
            System Requirements Were Not Adequately Managed During the Testing
                            of the Custodial Accounting Project

                                                                                                                                    Appendix VI


                 Custodial Accounting Project System Requirements Changes

A detailed analysis of the 63 Custodial Accounting Project change requests (CR) we were
provided showed the majority of CRs were initiated to fix and adjust for requirement errors.1
The remaining CRs were due to tax processing changes or miscellaneous errors.
                                                                   Figure 1: Reasons for the 63 CRs
                                                                        56% (35 out
                                                              40         of 63 CRs)

                                                              35

                                                              30                         37% (23 out
                                       # of Change Requests




                                                                                          of 63 CRs)
                                                              25

                                                              20

                                                              15
                                                                                                         8% (5 out of
                                                              10                                           63 CRs)

                                                              5

                                                              0
                                                                    Requirement       Tax Processing Miscellaneous
                                                                      Errors             Changes         Errors
                                                                                 Reasons for Changes


                Source: Data obtained from the Treasury Inspector General for Tax Administion’s (TIGTA) analysis of 63 CRs.
                Note: Percentages do not total 100 percent due to rounding.

Further analyses of the 63 CRs showed the following 2,234 changes occurred to affect system
requirements.
                                  Figure 2: Breakdown of 2,234 changes from the 63 CRs

                                                                                          432
                                 Changes adding
                                  requirements

                                                                                                       709
                              Changes modifying
                                requirements

                                                                                                                        1,093
                                Changes deleting
                                  requirements


                                                                    0         200       400     600    800         1,000    1,200
                                                                                        Num ber of Changes


                                         Source: Data obtained from the TIGTA’s analysis of 63 CRs.


1
    Requirement errors refer to requirements that were inaccurate, vague, or poorly defined.
                                                                                                                                         Page 25
System Requirements Were Not Adequately Managed During the Testing
                of the Custodial Accounting Project

                                                             Appendix VII


           Management’s Response to the Draft Report




                                                                     Page 26
System Requirements Were Not Adequately Managed During the Testing
                of the Custodial Accounting Project




                                                                     Page 27
System Requirements Were Not Adequately Managed During the Testing
                of the Custodial Accounting Project




                                                                     Page 28
System Requirements Were Not Adequately Managed During the Testing
                of the Custodial Accounting Project




                                                                     Page 29
System Requirements Were Not Adequately Managed During the Testing
                of the Custodial Accounting Project




                                                                     Page 30
System Requirements Were Not Adequately Managed During the Testing
                of the Custodial Accounting Project




                                                                     Page 31
System Requirements Were Not Adequately Managed During the Testing
                of the Custodial Accounting Project




                                                                     Page 32
System Requirements Were Not Adequately Managed During the Testing
                of the Custodial Accounting Project




                                                                     Page 33
System Requirements Were Not Adequately Managed During the Testing
                of the Custodial Accounting Project




                                                                     Page 34
